                                                                                                                              -
                                                                                                           Closeout




                                            MEMORANDUM

                                            Date:             October 13, 1998

                                            To:               File No. I9808
,   --   -.............-.   - ...........           . .   -                                                           ...............   . . . . . . .

                                            From:


                                            Through:                                     ent-in-Charge, Investigations Section

                                            Re:


                                            Background:

                                            Audit referred a potential duplicate travel case to us involving
                                               eared that she had been reimbursed for attending conferences in
                                                       simultaneously, between September 13, 1997 and


                                            qq
                                            Althou                onference which she attended from September 17-19 listed its
                                            address as                    source documents indicate that the conference was held in
                                                              , and that
                                                                                          as i          n during this entire time.
                                            Investigation:
                                                                                                                                                        I
                                                            documentation fi-omw       a    n    d fi-om the two conferences Dr.
                                                        attended during this time period. ote receipts indicate
                                            was in California fi-om September 13 - 19. The only
                                            charged to both accounts was a split airfare. Dr.
                                            $400.00 for airfare, and charged her NSF grant
                                            total cost of the ticket was $538.00.

                                                                  iewed
                                                                      le.(.~
                                                                           r                    vouchers and source documents fi-om
                                                                r the past two years as well as fi-om the conferences attended. No
                                                               found, and all expenses were verified by source documentation.

                                            Findings:

                                            Although the initial audit review suggested potential fi-audulent activity, we have found
                                            no evidence of duplicate reimbursement by Dr.                  that she claimed to attend
two conferences in different cities at the same time. No further investigation is warranted
at this time, and this case is closed.
